HHS/OIG, Audit -"Review of Medicare Administrative Costs Part A&B for Fiscal Years 2000-2004
Blue Cross&Blue Shield of Rhode Island,"(A-01-04-00523)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Administrative Costs Part A & B for Fiscal Years 2000-2004 Blue Cross & Blue
Shield of Rhode Island," (A-01-04-00523)
September 20, 2005
Complete
Text of Report is available in PDF format (1.17 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the administrative costs that Blue Cross & Blue
Shield of Rhode Island (Rhode Island) claimed in its cost proposals complied with applicable Federal
regulations and contract provisions.  Rhode Island claimed costs of $2,582,664 that were not allowable
for Medicare reimbursement.  These included $1,383,533 for costs in excess of CMS-approved budget
awards and for which adequate documentation of allowability was not provided; $1,103,268 for costs
that exceeded the actual allowable expenses supported by company accounting records; and $95,863 for
excess costs resulting from errors in the cost allocation process.  These unallowable claims were
made because Rhode Island did not have adequate internal control procedures to ensure that costs were
claimed in accordance with Federal regulations.
We recommended that Rhode Island adjust
its final administrative cost proposals by $2,582,664.  In response to our draft report, Rhode
Island agreed with the recommended disallowances of $1,199,131 related to costs claimed in excess
of actual expenses and errors in the allocation process.  However, Rhode Island did not agree
with the remaining recommended disallowance of $1,383,533.